                                             UNITED STATES OF AMERICA
                                     AGENCY FOR INTERNATIONAL DEVELOPMENT
-                           OFFICE OF THE REGIONAL INSPECTOR GENERAL FOR WEST AFRICA


-   UNITED STATES ADDRESS	                                                          INTERNATIONAL ADDRESS
            RIG DAKAR                                                                         RIG DAKAR
     AGENCY FOR INTERNATIONAL                                                               AMERICAN EMBASSY
           DEVELOPMENT                                                                  B.P. 49 DAKAR SENEGAL
-   WASHINGTON. D.C. 20521 - 2130	                                                            WEST AFRICA
                                                     March 25, 1999


-

            Memorandum
-

            To:             Thomas Park, Director,

            From:           Lee Jewel1 III, Acting

-           Subject:	       Audit of                Cashier Operations,
                            Audit Report No. 7-680-99-003-F

-
            This memorandum is our report on the subject audit. Your comments to our draft report were
            considered in the preparation of this final report and have been included in Appendix II
-
            This report has one recommendation. As of the date of this report, final action has been taken
            on the recommendation included herein.
-
             I appreciate the cooperation and courtesy extended to my staff during the audit.

-
            Background
-
                            has approximately 60 U.S. and Foreign Service National employees. Cash
            operations at the Mission are handled by a cashier. The Controller at               has overall
            responsibility for these functions and is guided by U.S. Department of State policy as well as
-
            Mission requirements. Mission cashiers are authorized to perform disbursements from their
                    funds and are held personally accountable and responsible for the amount of the funds,
-           At the time of our audit, the Mission’s authorized         level was $30,000.

            The cashier’s duties principally consist of:  maintainin an         fund in local currency
-           (CFA) and U.S. dollars; (2) disbursin, funds for local procurement, travel advances, local
            currency expense claims and emergency situations; (3) providing accommodation exchange;
            (4) accepting payments on behalf of the U. S. Government (such as for bills for collection)
-           and; (5) depositing the funds collected.
    Audit Objective

    The Office of Regional Inspector                   audited USAID/Benin’s cashiering operations
    to answer the following question:
-
                        implemented adequate controls over its cashier operations?

    Appendix    describes the audit’s scope and methodology.


    Audit Findings

    In our opinion, except for the effects, if any, of the loss of the elements of surprise and control
    over the cash count as described below,                   generally implemented adequate controls
    over its cashier operations. However, this report notes one area which should be addressed to
    reduce the risk of a loss of funds.

    According to the Mission Controller and evidence that we observed, Mission management
    provided comprehensive training, and oversight of its cashiering operations. In             the
    cashier successfully completed a           course for cashiers which was offered by the Foreign
    Service Institute, a U.S. Government training facility based in the United States. In addition,
    the Controller conducts routine surprise cash counts and reconciliations of the cashier’s
    fund.

    We also observed the physical security associated with the cashier operations and concluded
    that the security features appeared to be adequate. The cashier’s office is situated in a secured
    area on the first floor of the Mission building and access is restricted by a locked door to
    unauthorized personnel. The key for the cashier’s office is maintained by the cashier and a
    duplicate key is maintained at the U. S. Embassy, which is located nearby. All cash, checks
    and other documents associated with the cashier and the             fund reconciliation process
    are maintained in a safe. However, we noted that although the physical barriers seemed to
    provide adequate security from unauthorized entry, the office of the cashier itself was cluttered
    with many boxes of accountin records, including vouchers and receipts. The co-location of
    these records with the cashier’s function is a weakness in internal controls as discussed in the
-
    Comptroller General’s “Specific Internal Control Standards.” This weakness and our related
                are discussed in more detail below under the caption “Unrelated Accounting
    Records Should Be Removed From Cashier’s Office.”

    We began a surprise count of the cash and verification of other reconciling items on October
-   6,       However, during the course of our review, we noted--and the cashier also informed
    us-- that she had not completed and prepared a reconciliation of the fund since September 29,
           This several day lag in preparin, the reconciliation was due to procedures associated
-   with the            financial year-end closing process, and did not appear to be a recurring
    problem. Thus, we are not making a recommendation regarding this delay in preparing the

-
            fund reconciliation.

    Although no reconciliation analysis was available on October 6, 1998, we were able to count
    the cash and other reconciling items that the cashier provided to us. However, on October 6,
          we were not able to reconcile the cash and other reconciling items to the amount for
-          the cashier was accountable, because of the lack of a current reconciliation schedule,
    The cashier required a day to input the various        fund transactions into the reconciliation
    system. Thus, the reconciliation analysis was not available for our review until the afternoon
    of the following day. Because of the lack of a current reconciliation analysis before the close
    of business on October 6, 1998, we were unable to maintain the intended elements of surprise
    and control over cash and records.

    Unrelated Accounting Records Should
    Be Removed From Cashier’s Office

    During our review of the cashier’s operations, we noted that the cashier’s office, although
    physically secure from the entry of unauthorized people, contained many boxes of old and
    previously processed accountin, records. These boxes were stacked along the walls, in some
    instances four boxes high        two boxes deep--creating physical clutter and confusion.
    Furthermore, the boxes contained vouchers and receipts, which weakened internal controls by
    providing the cashier with access to unneeded accounting records which could be used in the
    reconciliation process to mask cash shortages.                stated that these records were
    maintained in the cashier’s office to enable the cashier to respond to requests from the
    accounting and payment staff for information on outstandin advances and cashier paid 122 1
    reconciliation items which the Mission is working to close.

    This easy access to unneeded records breaches one of the Comptroller General’s “Specific
    Internal Control Standards”: “Access to and Accountability for Resources.” According to this
    standard, access to resources and records is to be limited to authorized individuals, and
    accountability for the custody and use of resources is to be assigned and maintained.
    Furthermore, the detailed description of this standard explains that the basic concept behind
    restricting access to resources is to help reduce the risk of unauthorized use or loss to the
    Government.

    As a result of the cashier’s easy access to vouchers and receipts, there is a risk that these
    vouchers could be inappropriately substituted for cash in the reconciliation process and not
    detected in periodic surprise counts by the controller or auditors. The removal of these files
    from the cashier’s office would reduce the risk of invalid receipts being substituted for
    misappropriated cash. This removal would also have a secondary benefit of improving the
    working conditions of the cashier by removin the physical confusion and clutter from the
    cashier’s office.

           Recommendation No. 1: We recommend that                         maintain only those
           records associated with the cashier’s current activities in the cashier’s office. All
-
           other accounting records should be removed from the cashier’s office and stored
           in another location.
-



-                 Comments and Our Evaluation

                  concurred with Recommendation No. As a result, the Mission stated that it
-   has removed     prior year files from the cashier’s office.

    We believe that                   reported actions meet the intent of Recommendation No. 1.
-
    We, therefore, consider this final management action upon issuance of the audit report and no
    further action is required on the part of




-



-



-




-




-




                                                  4

                                                                                            Appendix I




-
                                        SCOPE AND

                                      METHODOLOGY

-

    Scope
-
    The Office of the Regional Inspector General for                    conducted an audit, in
    accordance with generally accepted government auditing standards, of the cashier’s operations
    at               The audit was conducted at the Mission’s office in Cotonou, Benin from
    October 6 through October 9, 1998 and            on the controls and accountability of the
    $30,000         fund.


    Methodology
-
    We considered the materiality of transactions, supportin documents and potential disclosure
    of noted exceptions in the planning, fieldwork and reporting phases of our audit. Because of
-
    the liquidity of cash and its relative risk of loss, our materiality threshold was set at a relatively
    low level.

    To accomplish our audit objective, we (1) reviewed the physical security of the cashier’s office,
    (2) tested selected transactions and evaluated controls relating to the safeguarding of cash and
    (3) obtained a management representation letter containin essential assertions from appropriate
    Mission officials.

-   We also attempted to (1) perform a surprise cash count of the             fund and (2) verify the
    reconciliation of cash and reconciling items to the $30,000                     fund balance of
    accountability. However, we were unable to maintain the elements of surprise and control over
    the cash and records of the cashier’s               fund. We began our surprise count of the
    cashier’s          fund on October 6, 1998. However, a current reconciliation analysis was not
    available for us to verify until the afternoon of the following day. During this delay the cashier
-   needed access to the records to prepare the reconciliation and we were not able to maintain a
    constant vigil over the cash and documents constituting this fund.

-



-
                                                                                                            Appendix II




                                             U.S. Agency For International Development



-   DATE:           March 08, 1999

    TO:             Mr. Henry Barrett


    FROM:           Mr. Tom Park
                    Mission Director,

    SUBJECT:        Draft Audit Report Number 7-680-99-00X-F on
                                    Cashier Operations

-


    As requested,      Mission has reviewed the RIG’s draft audit report on USAID/Benin’s cashier
-
    operations. Please find below our response to the report’s following recommendation.

    Audit Recommendation:

    We recommend that                    maintain only those records associated with the cashier’s

    current activities in the cashier’s     All other accounting records should be removed from

    the cashier’s office and stored in another location.


    Based on feedback received from the cashier, the above records were maintained in the cashier’s
    office to enable the cashier to respond to requests from the accounting and payment staff for
    information on outstanding advances and cashier paid 1221 reconciliation items which the Mission
    is working to close.
-
    However, as pointed out by the auditors, the storage of this documentation in the cashier’s office
    presented a potential vulnerability. Therefore, as noted in the draft audit report, the Mission has taken
    action to resolve this finding, and all prior year files have now been removed from the cashier’s
    office.

    The Mission appreciates the RIG’s feedback and assistance in improving                           cashier
    operations.



-
